                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDLTM

Case Number: A09040027
                                                                                   11           Page 1 of 1



                 We reviewed an allegation that an NSF-fimded PI' had plagiarized from a subscription-based
        trade journal2 by publishing data collated into a single spreadsheet from multiple issues of that
        journal. As part of ourreview, we considered whether there was substance to support a case for a
        criminal copyright violation. We did not make a determination regarding other aspects of copyright
        infringement, as such rights would require enforcement by the copyright holder. We reviewed the
        terms of use for the journal, which asserted that proprietary data and all material in the journal could
        not be reused without prior permission and that all material was covered by copyright. We compared
        the data as presented in the journal with its presentation in PI'S published spreadsheet. We
         determined that the PI provided citations so that the reader could reasonably find the source of each
         raw data entry and coded the data thereby adding original content and altering the journal's
         expression of the collated data. As such, there is insufficient evidence to support an allegation of
         plagiarism or a criminal copyright violation.

                   Accordingly, this case is,closed.




SF OIG Form 2 (1 1/02)
